U.S. Department of Justice

Office of the Solicitor General
Washington, D.C. 20530

May 1,2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Adalberto F. Palacios-Solis v. United States of America,
S.Ct.No. 19-1195

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 31,
2020, and placed on the docket on April 3, 2020. The government's response is due on May 4,
2020.
We respectftilly request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 3, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-1195
PALACIOS-SOLIS, ADALBERTO F.
USA

VINCENT GREGORY LEVY
HOLWELL SHUSTER & GOLDBERG, LLP
425 LEXINGTON AVENUE
14TH FLOOR
NEWYORK,NY 10017
646-837-5151
VLEVY@HSGLLP.COM

